DOE/IG-0518




          AUDIT                    EVALUATION OF CLASSIFIED
                                     INFORMATION SYSTEMS
         REPORT                        SECURITY PROGRAM




                                             AUGUST 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                               August 30, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit of the Evaluation of Classified
                         Information Systems Security Program


BACKGROUND

All information processed, transmitted, stored, or disseminated by or on behalf of the
Department of Energy (Department) on automated information systems requires some
level of protection. The loss or compromise of information entrusted to the Department
or its contractors may affect the nation’s economic competitive position, the
environment, national security, Department missions, or citizens of the United States.

In response to the increasing threat to Federal information systems, the Government
Information Security Reform Act (GISRA) was enacted in October 2000. GISRA
specifically requires that national security or other classified information systems be
evaluated annually by an independent organization designated by the Secretary of
Energy. GISRA also requires that the Office of Inspector General perform an audit of
this evaluation. The Department formally selected the Office of Independent Oversight
and Performance Assurance (OA) to perform the independent evaluation of its classified
information systems security program.

The objective of our audit was to determine whether the evaluation of classified
information systems was performed in accordance with GISRA requirements.

RESULTS OF AUDIT

Overall, the evaluation of classified information systems was performed as required by
GISRA. OA’s “Report on the Status of the Department of Energy’s Classified
Information System Security Program,” should provide the Department with reasonable
assurance that the processes of managing and controlling classified information systems
have been independently evaluated. While the approach appeared to be reasonable, we
were unable to complete verification procedures we considered necessary because
documentation to support past inspections was not always available. In addition, we
were unable to determine whether all inspection requirements had been satisfied because
OA had not finalized policies and procedures to govern the conduct of cyber security
inspections.
                                             2



We recognize that this is the first year for this process and that OA’s evaluation approach
continues to evolve. During the coming year, we plan to work with the Office of Cyber
Security and Special Reviews, a division of OA, to clarify documentation procedures and
to better integrate the audit process.


MANAGEMENT REACTION

We made several recommendations designed to improve the evaluation process.
Management concurred with our finding and recommendations and indicated that it had
initiated corrective actions.


Attachment

   cc: Deputy Secretary
       Under Secretary for Energy, Science and Environment
       Administrator, National Nuclear Security Administration
       Acting Chief Information Officer
       Director, Office of Independent Oversight and Performance Assurance
AUDIT OF THE EVALUATION OF CLASSIFIED INFORMATION
SYSTEMS SECURITY PROGRAM

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 1


                Process Improvements Necessary

                Details of Finding.......................................................................2

                Recommendations and Comments ...........................................4


                Appendices

                1. Scope and Methodology........................................................5

                2. Office of Independent Oversight Report on the Status
                   Of the Department of Energy's Classified Information
                   Systems Security Program,
                   January 2000—July 2001 .....................................................7
OVERVIEW


INTRODUCTION AND   All information processed, transmitted, stored, or disseminated by or on
OBJECTIVE          behalf of the Department of Energy (Department) on automated
                   information systems requires some level of protection. The loss or
                   compromise of information entrusted to the Department or its
                   contractors may affect the nation’s economic competitive position, the
                   environment, national security, Department missions, or the citizens of
                   the United States.

                   In response to the increasing threat to information systems and the
                   highly networked nature of the Federal computing environment, the
                   Government Information Security Reform Act (GISRA) was enacted on
                   October 30, 2000. GISRA focuses on program management,
                   implementation, and evaluation aspects of the security of unclassified
                   and classified information systems. It specifically requires that national
                   security or other classified information systems be evaluated annually
                   by an independent organization designated by the Secretary of Energy.
                   The Department formally selected the Office of Independent Oversight
                   and Performance Assurance (OA) as the entity to perform the
                   independent evaluation of its classified information system security
                   program. GISRA also requires that the Office of Inspector General
                   perform an audit of this evaluation.

                   The objective of our audit was to determine whether the evaluation of
                   classified information systems was performed in accordance with
                   GISRA requirements.


CONCLUSIONS AND    Overall, the evaluation of classified information systems was performed
OBSERVATIONS       as required by GISRA. OA’s “Report on the Status of the Department
                   of Energy’s Classified Information System Security Program,” should
                   provide the Department with reasonable assurance that the processes of
                   managing and controlling classified information systems have been
                   independently evaluated. While the approach appeared to be
                   reasonable, we were unable to complete verification procedures we
                   considered necessary because documentation to support past
                   inspections was not always available. In addition, we were unable to
                   determine whether all inspection requirements had been satisfied
                   because OA had not finalized policies and procedures to govern the
                   conduct of cyber security inspections.

                                                                   Signed
                                                         Office of Inspector General



Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
PROCESS IMPROVEMENTS WARRANTED

Overall Evaluation   Overall, the evaluation of classified information systems was performed
was Reasonable       as required by GISRA. While the approach appeared to be reasonable,
                     we were unable to complete verification procedures we considered
                     necessary because documentation to support past inspection efforts was
                     not always available. In addition, we were unable to determine whether
                     all inspection requirements had been satisfied because policies and
                     procedures to govern the conduct of inspections had not been finalized.

                                              Evaluation Approach

                     Rather than performing a separate review, OA elected to base its
                     evaluation of the Department’s classified information system security
                     program on a series of cyber security inspections performed during the
                     normal course of business. The Office of Cyber Security and Special
                     Reviews, a division of OA, performed these inspections at a number of
                     the Department’s sites during the previous 19-month period. The report
                     of evaluation recaps the results of those inspections and draws overall
                     conclusions as to the appropriateness and extent of compliance with
                     policy and current implementation efforts. It also concludes on the
                     effectiveness of the Department’s classified cyber security program.

                     The inspections on which the report of evaluation was based appeared
                     to be reasonable and were conducted using a comprehensive, two-tiered
                     approach that included performance tests and programmatic reviews.
                     Performance tests are employed to assess a site’s current cyber security
                     posture. Programmatic reviews evaluate the site’s cyber security
                     approach and sustainability of the program over time. Components of
                     performance testing include data gathering through internal and
                     external network scanning for vulnerabilities and attempts to use that
                     information to gain unauthorized access and privileges to sites’
                     networks and computer systems by mimicking an unauthorized
                     intrusion or attack. The programmatic portion of these inspections
                     includes aspects of the classified cyber security program related to:

                           •   Leadership, responsibilities, and authorities;
                           •   Risk management and planning;
                           •   Policy, guidance, and procedures;
                           •   Technical implementation; and
                           •   Performance evaluation, feedback and continuous
                               improvement.




Page 2                                                                    Details of Finding
                                                   Quality Review Factors

                          We also observed that the Office of Cyber Security and Special
                          Reviews employed a number of practices designed to ensure the quality
                          of reviews used to support their evaluation report. For example, we
                          observed that the professional qualifications and technical skills of
                          those assigned to reviews tasks were appropriate. During our site visits
                          we noted that personnel involved in the cyber security evaluation
                          demonstrated a thorough understanding of cyber security issues. We
                          also observed that each cyber security finding or problem area noted by
                          an OA inspection team was validated with site officials on a real time
                          basis. Final reports were also validated by management at the
                          conclusion of the inspection and prior to the team leaving the site.


Standard for Evaluation   GISRA and general standards for internal control activities require that
                          entities performing the evaluation of classified information systems
                          satisfy several requirements. Specifically, the evaluation must be
                          performed by an independent entity, be based on the results of tests of
                          security control techniques for an appropriate subset of systems, and
                          include an assessment of compliance with GISRA related policies and
                          procedures. Standards for Internal Control in the Federal Government
                          (GAO/AIMD-00-21.3.1) generally require that internal control
                          activities such as those related to cyber security evaluations be
                          documented. For instance, internal control transactions and related
                          policies must be adequately documented and such documentation
                          should be readily available for examination.


Specific Improvements     Although the approach taken and conclusions reached by OA appeared
Necessary                 reasonable, specific improvements in the evaluation process are
                          necessary. For example, we were unable to complete verification
                          procedures we considered necessary because documentation to support
                          past inspection efforts was not always available. OA could not always
                          readily provide the supporting documentation such as network
                          vulnerability scan results, interview and meeting minutes, and/or
                          documentation as to the scope, methodology, or context of each
                          classified information system evaluation. While we consider the
                          validation process used to ensure the accuracy of each report to be a
                          compensating control, additional documentation is necessary to support
                          the nature, extent, and result of tests of classified information security
                          controls.



Page 3                                                                         Details of Finding
                   In addition, we were unable to determine whether all evaluation
                   requirements had been satisfied because policies and procedures to
                   govern the conduct of cyber security inspections had not been finalized.
                   Specifically, we could not always validate that the approach adopted
                   covered critical aspects of the site’s cyber security program. Utilizing
                   formal policies and procedures during an inspection can provide a
                   number of benefits. Specifically, well-developed policies and
                   procedures permit the use of structured documentation techniques and
                   generally provide a clear picture of the scope and context of the
                   inspection. Using such an approach helps to simplify third party
                   reviews or audits and ultimately enhances the overall inspection
                   structure. While an effort to develop and formally document policies
                   and procedures to govern the conduct of cyber security inspections was
                   underway, the project remained incomplete at the time of our audit.


RECOMMENDATIONS    We recommend that the Director, Office of Independent Oversight and
                   Performance Assurance:

                      1. Develop and implement a structured approach to documenting
                         and maintaining information to support each classified
                         information system inspection report, and

                      2. Adopt formal policies and procedures to govern classified
                         information system inspections. Such policies should cover all
                         aspects of the inspection process and should specifically address
                         topics such as the extent of coverage, areas of concentration,
                         and overall review methodology.


MANAGEMENT         Management concurred with our finding and recommendations and
REACTION           indicated that it had initiated corrective actions.


AUDITOR COMMENTS   Management's comments and proposed actions are responsive to our
                   recommendations. We look forward to working with the Office of
                   Cyber Security and Special Reviews during the coming year.




Page 4                                             Recommendations and Comments
APPENDIX 1
SCOPE         The audit work was conducted at Department Headquarters in
              Washington, DC and the Hanford Reservation, located in Richland,
              Washington between June and August 2001. Rather than performing a
              separate review, OA elected to base its evaluation of classified
              information system security program on a series of cyber security
              inspections that were performed over the normal course of business
              during the previous 19-month period. Therefore, the scope of our audit
              included a review of judgmentally selected classified cyber security
              inspection reports and the associated supporting documentation that
              formed the basis of the evaluation. In addition, to further our
              understanding of the cyber security review process, we observed the
              performance of a comprehensive cyber security evaluation.

              The scope of our audit was limited because we were unable to complete
              verification procedures we considered necessary because
              documentation to support past review efforts was not always available.
              In addition, we were unable to determine whether all inspection
              requirements had been satisfied because OA had not finalized policies
              and procedures that govern the conduct of inspections. Furthermore,
              our audit provides no assurance for those classified information systems
              used to manage intelligence related information. As indicated in the
              attached evaluation report, such systems were not reviewed. According
              to GISRA, evaluation authority for such systems is vested in the
              Secretary of Defense or the Director, Central Intelligence.

METHODOLOGY   To satisfy the audit objective we:

                 •   Observed OA perform a comprehensive cyber security review at
                     the Hanford Reservation;
                 •   Participated in numerous discussions with OA management
                     officials as well as cyber security officials with the Office of the
                     Chief Information Officer (CIO);
                 •   Reviewed all the reports used by OA to form the basis of their
                     report of independent evaluation;
                 •   Judgmentally sampled five reports to review the supporting
                     documentation used by OA in their evaluation;
                 •   Reviewed qualification and competencies of OA personnel
                     performing classified information system security program
                     inspections; and
                 •   Evaluated OA organizational placement in terms of its structural
                     independence within the Department.


Page 5
                                                            Scope and Methodology
         The audit was conducted in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the audit objective. Because our review
         was limited, it would not necessarily have disclosed all internal control
         deficiencies that may have existed. Also, we did not rely on computer-
         processed data to accomplish our audit objective. Management waived
         a formal exit conference.




Page 6                                                              Methodology
APPENDIX 2




Page 7       Office of Independent Oversight Report on the Status of
             The DOE's Classified Information System Security Program
Page 8
Page 9
Page 10
Page 11
Page 12
Page 13
Page 14
Page 15
Page 16
Page 17
Page 18
Page 19
Page 20
Page 21
Page 22
Page 23
Page 24
Page 25
Page 26
Page 27
Page 28
Page 29
Page 30
Page 31
Page 32
                                                                               IG Report No. :DOE/IG-0518

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
